No. 20-6066

IN THE

Supreme Court of the United States
_______________

RODOLFO SEGURA-VIRGEN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
_______________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit
_______________
SUPPLEMENTAL BRIEF OF PETITIONER
_______________
GEREMY C. KAMENS
Federal Public Defender
Joseph S. Camden
Assistant Federal Public Defender
Counsel of Record
701 East Broad Street, Suite 3600
Richmond, VA 23219
(804) 565-0800
Joseph_Camden@fd.org
May 24, 2021

SUPPLEMENTAL BRIEF OF PETITIONER
Mr. Segura submits this supplemental brief under this Court’s Rule 15.8 to
explain how this Court’s opinion in United States v. Palomar-Santiago, --- S.Ct. ----,
2021 WL 2044540 (May 24, 2021) affects his arguments in support of a grant of
certiorari.
Palomar-Santiago resolves the first question presented in Mr. Segura’s favor,
and does not resolve his second question presented. In fact, this case would be the
ideal vehicle to follow Palomar-Santiago and clarify when an administrative
remedy is not “available” under 8 U.S.C. § 1326(d)(1) and an alien has been
“deprived of the opportunity for judicial review” under § 1326(d)(2). Therefore, this
Court should grant Mr. Segura’s petition for certiorari. Or, in the alternative, Mr.
Segura requests that the Court remand his case to the Fourth Circuit to further
analyze in light of Palomar-Santiago.
1.

Rodolfo Segura was brought to the United States as a child, grew up and

attended school in the United States, and speaks English fluently. App. 7a. At age
19, he was convicted of a violation of California Penal Code § 261.5(c). Then in
2001, he was served with a Form I-851, which alleged that he was deportable and
ineligible for relief because his conviction was an aggravated felony. In 2017, this
Court held that California Penal Code § 261.5(c) convictions are not aggravated
felonies. See Esquivel-Quintana v. Sessions, 137 S.Ct. 1562 (2017).
In the district court, Mr. Segura challenged his indictment under 8 U.S.C. §
1326(d). He pointed out that Form I-851 does not provide any avenue for a
noncitizen to admit the fact of conviction, but challenge whether the conviction is an
-1-

aggravated felony. App. 13a. Therefore there were no administrative remedies to
exhaust, and any waiver of the right to judicial review was not considered and
intelligent under Mendoza-Lopez.
The district court agreed that “there was no available administrative remedy”
and § 1326(d)(1) was satisfied. App. 14a. But it held that Mr. Segura’s general
waiver of the right to appeal, even without being provided an opportunity to
challenge the classification of his conviction, was valid. App. 15a-16a.
Second, relying on United States v. Lopez-Collazo, 824 F.3d 453, 467 (4th Cir.
2016), the district court held that ICE “did not misapply the law” despite EsquivelQuintana, because the law at the time of Mr. Segura’s removal order governed, and
not subsequently-decided precedent. App. 17a. The Fourth Circuit adopted the
reasoning of the district court. App. 2a.
2.

Mr. Segura’s petition presented two questions: First, whether courts

evaluating a prior removal order under § 1326(d) should apply the law as it is now
understood, or instead as understood by immigration officers at the time of removal,
as the courts below held. Second, Mr. Segura asks “whether a pro se alien’s waiver
of the right to appeal is ‘considered and intelligent’ under Mendoza-Lopez in the
absence of an opportunity to dispute whether his prior conviction is an aggravated
felony.” See Pet. ii.
a.

Palomar-Santiago resolves the first question presented in Mr. Segura’s

favor. There, the order of removal at issue was entered by an immigration judge
under binding BIA precedent declaring convictions for driving under the influence

-2-

(DUI) to be aggravated felonies; it was entered years before this Court held in
Leocal v. Ashcroft, 543 U.S. 1 (2004) that driving under the influence is not a “crime
of violence” aggravated felony. The government argued there (as the district court
held in this case) that the immigration judge had “accurately classified” Mr.
Palomar’s DUI as an aggravated felony “under the law that existed at the time” of
Mr. Palomar’s removal order. Brief of the United States, 2021 WL 720352 at *22;
see id. at *24 (“[I]t was an accurate statement of the substantive law at the time of
respondent’s removal hearing.”).
This Court rejected that argument, holding “Palomar-Santiago’s DUI
conviction was not a crime of violence[.]” Id. at *3 (emphasis added, past tense in
original). “Palomar-Santiago’s removal order thus never should have issued.” Id.
In support of the retroactive application of Leocal, this Court cited Rivers v.
Roadway Express, Inc., 511 U.S. 298, 312-313 (1994), which held that decisions
interpreting statutes are statements of what the law meant “before as well as after
the decision of the case giving rise to that construction.” Id.
Thus Palomar-Santiago and this Court’s invocation of Rivers resolves the
first question presented in Mr. Segura’s favor. Mr. Segura’s conviction under Cal.
Penal Code § 261.5(c), as interpreted by Esquivel-Quintana v. Sessions, 137 S.Ct.
1562 (2017), “was not” an aggravated felony and his removal order “never should
have issued.” The Fourth Circuit’s holding to the contrary in United States v.
Lopez-Collazo, 824 F.3d 453 (4th Cir. 2016) has been abrogated and the Circuit split

-3-

on that issue resolved in Mr. Segura’s favor. Therefore the first basis of the decision
below has been undermined.
b.

However, as this Court noted, an “error on the merits does not excuse

the noncitizen’s failure to comply with a mandatory exhaustion requirement[.]”
Palomar-Santiago, 2021 WL 2044540 at *4. Anticipating that this might be so, the
second question presented concerns whether the opportunity for judicial review was
available to Mr. Segura. 1 Pet. ii.
In particular, Form I-851, used in all administrative removals, provides no
avenue to challenge whether the noncitizen’s conviction is an aggravated felony.
Instead it provides an exclusive checklist that forecloses that option:

App. 22a. Most circuits that have examined Form I-851 agree that disputing the
legal characterization of the prior conviction is not an available option in

Here, the district court and Fourth Circuit below held that there were no
administrative remedies available to Mr. Segura under § 1326(d)(1), applying Etienne
v. Lynch, 813 F.3d 135, 141-142 (4th Cir. 2015). Therefore only § 1326(d)(2) is at
issue, and Mr. Segura must show that he was deprived of the opportunity for judicial
review. Palomar-Santiago’s holding applies to both requirements. Id. at *4.
1

-4-

administrative removal proceedings. Etienne v. Lynch, 813 F.3d 135, 141-42 (4th
Cir. 2015); Valdiviez-Hernandez v. Holder, 739 F.3d 184 (5th Cir. 2013); United
States v. Valdivia-Flores, 876 F.3d 1201, 1205-06 (9th Cir. 2017); Victoria-Faustino
v. Sessions, 865 F.3d 869, 873 (7th Cir. 2017); but see Malu v. Atty. Gen., 764 F.3d
1282, 1289 (11th Cir. 2014).
The administrative removal proceedings used here stand in direct contrast to
the immigration court hearing that Mr. Palomar-Santiago enjoyed, where the
noncitizen can “proffer defenses . . . including that the conviction identified in the
charging documents is not a removable offense.” Id. at *2. In Mr. Segura’s case no
such option was provided; therefore Palomar-Santiago cannot control whether there
were available administrative remedies or judicial review.
Instead, this case presents a procedural question concerning whether a
waiver of appeal can be considered and intelligent when a noncitizen is precluded
from disputing the classification of his conviction. This question is “distinct” from
the “substantive validity” of the order itself. Palomar-Santiago, 2021 WL 2044540
at *4. In other words, Mr. Segura did not have the opportunity for judicial review
because ICE told him he could not dispute the classification of his conviction, and
not simply because they reached the wrong result.
3.

The circuit split outlined in Mr. Segura’s petition for certiorari, Pet. 14-18 is

not resolved by Palomar-Santiago. This is because it concerns the portion of
Mendoza-Lopez that this Court left unaddressed in Palomar-Santiago.

-5-

In United States v. Mendoza-Lopez, 481 U.S. 828 (1987), the noncitizens
waived appeal on the record at their deportation hearings. This Court held that the
noncitizens were “deprived of their rights to appeal” because “the only relief for
which they would have been eligible was not adequately explained to them[.]” Id. at
842. This rendered their waivers of the right to file an administrative appeal “not
considered or intelligent[.]” Id.
Palomar-Santiago did not purport to overrule Mendoza-Lopez and its direct
holding on the deprivation-of-judicial-review requirement, which § 1326(d)(2)
adopted untouched. This Court reserves to itself the “prerogative . . . to overrule
one of its precedents[.]” Bosse v. Oklahoma, 137 S.Ct. 1, 3 (Thomas, J., concurring)
(citations omitted). Thus the circuit court precedents analyzing whether a
purported waiver of appeal was “considered or intelligent” under Mendoza-Lopez
will stand. The only relevant holding of Palomar-Santiago on this point is that a
legal error on deportability does not alone render a waiver of appeal invalid, where
an alien was provided an opportunity to dispute the allegation of deportability.
Palomar-Santiago, 2021 WL 2044540 at *4 (“§ 1326(d)’s first two procedural
requirements are not satisfied just because a noncitizen was removed for an offense
that did not in fact render him removable.”). Here, the procedures used never
provided Mr. Segura an opportunity to dispute deportability – he invokes a
procedural deficiency, not a substantive one. Therefore, Mendoza-Lopez will
continue to control the outcome of the circuit split.

-6-

For all of these reasons, Palomar-Santiago does not control this case, and the
split of authority Mr. Segura invoked will be persist unless this Court intervenes.
The petition for certiorari should be granted.
Respectfully submitted,
GEREMY C. KAMENS
Federal Public Defender
for the Eastern District of Virginia
Joseph S. Camden
Counsel of Record
Assistant Federal Public Defender
Office of the Federal Public Defender
for the Eastern District of Virginia
701 East Broad Street, Suite 3600
Richmond, VA 23219
(804) 565-0830
Joseph_Camden@fd.org
May 25, 2021

-7-

